<html>
<title> - AN UPDATE ON NASA EXPLORATION SYSTEMS DEVELOPMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                          AN UPDATE ON NASA
                    EXPLORATION SYSTEMS DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 9, 2017

                               __________

                           Serial No. 115-37

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
       
                                __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-676 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>    
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
BARRY LOUDERMILK, Georgia            ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         PAUL TONKO, New York
DRAIN LaHOOD, Illinois               BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
BILL POSEY, Florida                  DONALD S. BEYER, JR., Virginia
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         CHARLIE CRIST, Florida
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ANDY BIGGS, Arizona
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas
                            C O N T E N T S

                            November 9, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Ami Bera, Ranking Member, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    13

                               Witnesses:

Mr. William Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Directorate, NASA
    Oral Statement...............................................    15
    Written Statement............................................    18

Dr. Sandra Magnus, Executive Director, American Institute of 
  Aeronautics and Astronautics (AIAA)
    Oral Statement...............................................    26
    Written Statement............................................    28

Discussion.......................................................    37

             Appendix I: Answers to Post-Hearing Questions

Mr. William Gerstenmaier, associate administrator, Human 
  Exploration and Operations Directorate, NASA...................    56

Dr. Sandra Magnus, executive director, American Institute of 
  Aeronautics and Astronautics (AIAA)............................    83

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    88

Documents submitted by Representative Bill Posey, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    89

 
                           AN UPDATE ON NASA
                    EXPLORATION SYSTEMS DEVELOPMENT

                              ----------                              


                       Thursday, November 9, 2017

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:37 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Babin. Good morning. The Subcommittee on Space 
will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing titled ``An Update on NASA 
Exploration Systems Development.''
    I now recognize myself five minutes for an opening 
statement.
    Exploration means expanding our reach as humans, as a 
civilization and as a country. The ability of our nation to 
explore space is a strategic imperative. Our ability to carry 
out this critical strategic endeavor will rely on a few key 
capabilities. We must launch the Space Launch System in order 
to push beyond low-Earth orbit. We must finish developing the 
Orion capsule in order to operate in deep space. And we must 
upgrade our ground infrastructure to support a rejuvenated and 
an expanded exploration agenda.
    NASA's long-term goal, as laid out in the 2017 NASA 
Transition Authorization Act, is to extend human presence 
throughout the Solar System. The Space Launch System and Orion 
are the strategic capabilities that will allow and enable 
humans and robots to accomplish this goal. SLS and Orion will 
enable U.S. astronauts to return to the Moon for the first time 
since Gene Cernan left his daughter's name in the lunar 
regolith in 1972.
    As Vice President Pence said in his inaugural meeting of 
the reestablished National Space Council, ``We will return 
American astronauts to the Moon, not only to leave behind 
footprints and flags, but to build the foundation that we need 
to send Americans to Mars and beyond.'' SLS and Orion are the 
tip of the spear that will lead that return. The commercial 
sector can contribute by supplying necessary services and 
providing augmenting capabilities, but SLS and Orion are 
irreplaceable strategic assets that are necessary for missions 
to the Moon, Mars, and beyond.
    One of the first major laws that President Trump signed was 
the NASA Transition Authorization Act of 2017. The bill, which 
originated with this Committee, directed NASA to stay the 
course with SLS and Orion. It also reaffirmed congressional and 
presidential direction for NASA to utilize a stepping-stone 
approach to exploration, which allows for a return to the Moon.
    I wholeheartedly support the Administration's call to 
return to the Moon. This Committee has received testimony time 
and again that the Moon is the appropriate next destination for 
our space program. Returning to the Moon does not have to mean 
delaying a mission to Mars. On the contrary, it is a logical 
step that enables exploration of the red planet and beyond.
    And while I'm excited by the promise of how strategic 
assets like SLS and Orion will enable America to return to the 
Moon, this committee has a responsibility to conduct oversight 
to ensure that these programs are successful. All three 
exploration system elements--SLS, Orion, and Ground systems--
have experienced delays and overruns. This year has certainly 
challenged the program.
    Last year, Michoud in Louisiana was hit by a tornado. In 
August, Texas and Florida were hit by hurricanes. A couple 
years ago the Michoud's Vertical Assembly Facility foundation 
was not reinforced, requiring a rebuild. This year, 
complications with friction stir weld pins at Michoud resulted 
in poor welds on the core stage. All of this adds up. It 
appears as though the new issues with tornados and hurricanes 
and welding will cost roughly a year of delay. Depending on 
whether the Europeans deliver the service module on time for 
integration on Orion, the delay may be greater.
    Congress needs to understand where the program is today. 
What cost, schedule, and performance deliverables can the 
agency commit to? What is the plan going forward? How will NASA 
manage future issues to ensure long-term program 
sustainability? We aren't out of the woods yet on this program, 
but we can see the edge of the forest. Significant progress has 
been made. We're bending metal, writing software code, and 
integrating hardware. Given a program of this magnitude, this 
is no small feat, particularly given the challenges that the 
program faced under the last administration.
    In order to meet our nation's space exploration goals, it 
will take focus, discipline, and continuity of efforts going 
forward. The Administration and Congress must not only provide 
leadership and direction, but we must also appropriately fund 
and oversee the program. Similarly, NASA and the contractors 
have to execute. Failure to do so could have dire consequences 
for the program, and there will be no one else to blame.
    The Administration has demonstrated its renewed support. 
Congress consistently funds the program at healthy levels. It 
is time for NASA and the contractors to deliver.
    I am thankful that our witnesses are here today to help us 
better understand where we are with the program and how we plan 
to move forward, and I look forward to your testimony.
    [The prepared statement of Chairman Babin follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. I now recognize the Ranking Member, the 
gentleman from California, Mr. Bera, for an opening statement.
    Mr. Bera. Thank you, Mr. Chairman. And good morning to our 
distinguished panel.
    This is a great hearing and a great time for this hearing 
to get an update on NASA's exploration systems development 
activities. NASA continues to progress, but as the Chairman 
pointed out, there have been some challenges beyond their 
control in developing key elements needed to move humans beyond 
low-Earth orbit and eventually send them to Mars.
    Construction of the Space Launch System, the Orion crew 
vehicle, and ground infrastructure at Kennedy Space Center is 
well underway. Major components for Exploration Mission 1, also 
known as EM-1, and EM-2, are undergoing fabrication and 
testing. For example, in August 2017, NASA completed the--
welding the liquid oxygen tank that is scheduled for use on the 
SLS launch vehicle to be flown on EM-1. The Orion spacecraft 
destined for EM-1 was successfully powered up for the first 
time in August 2017 and on October 19, 2017, NASA engineers 
conducted a full duration 500-second test of one of the RS-25 
flight engines to be used on EM-2.
    NASA and industry partners have not undertaken a rocket 
development program of this scale for more than three decades. 
In addition to new hardware and infrastructure, this has also 
necessitated reestablishing critical capabilities needed for 
U.S. leadership in deep space exploration. This is not just 
work NASA and its prime contractors are doing. Over 1,000 
suppliers spread across every State are part of this program. 
However, a program of this size does not happen without 
challenges, and NASA's human space exploration program is 
facing several, including having to maintain manufacturing, 
test, and processing schedules as SLS, Orion, and EGS are 
integrated; the recovery from tornado damage at the Michoud 
Assembly Facility that the Chairman mentioned; resolve first-
time production issues for SLS elements; and adjust activities 
in response to unpredictable appropriations funding.
    As the Chairman pointed out, independent analysis by GAO 
and NASA's Office of Inspector General have also identified 
concerns with NASA's ability to meet projected launch dates. 
For instance, in an April 2017 report, GAO found that despite 
SLS, Orion, and EGS activities making progress, ``schedule 
pressure is escalating as technical challenges continue to 
cause schedule delays.'' GAO characterized NASA's planned 
launch date of November 2018 as ``precarious.''
    Part of what I hope to get out of today's hearing is a 
better understanding of what that clear plan and an updated 
launch date for EM-1, as well as the opportunity to continue 
examining other important issues, including the reasons for the 
latest delay in launching EM-1 and the basis for having 
confidence in NASA's plan moving forward; indicators and 
milestones Congress should use for measuring progress being 
made both by the SLS, Orion, and EGS programs and by NASA in 
establishing a production capability; and how a return to the 
Moon, including establishing a human presence, would impact the 
goal of sending humans to Mars in the 2030s, as directed in the 
2017 NASA Transition Authorization Act.
    In closing, Mr. Chairman, you've often heard me talk about 
growing up in the middle of the Space Race, growing up in 
Downey, California, home of much of the Apollo mission and how 
that inspired me, along with a generation of kids, to think 
about the sciences and beyond. What we're talking about in 
terms of the systems that we're developing today is a 
reestablishment of American leadership in the space program as 
we start to think about going back to the Moon and going beyond 
into deep space. And that does have the ability to inspire 
another generation of kids and reinvigorate our desire to 
explore our curiosity about the universe around us.
    One of those inspirational figures of the nation's human 
space program is actually with us today. Dr. Magnus has flown 
on the shuttle and lived on the International Space Station. We 
thank you, Dr. Magnus, for your service and appreciate you 
being a role model for millions of young people.
    I look forward to the testimony and I yield back.
    [The prepared statement of Mr. Bera follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Babin. Thank you. I couldn't agree more, Mr. Bera.
    I now recognize the Chairman of our full committee, Mr. 
Smith.
    Chairman Smith. Thank you, Mr. Chairman. And I appreciate 
your comments and the Ranking Member's comments as well.
    Congress has supported NASA's Exploration Systems program 
for years. We have showed this support in law and with funding, 
from one Administration to the next. After all these years, 
after billions of dollars spent, we are facing more delays and 
cost overruns. Recent hurricanes and tornadoes have damaged 
some facilities and slowed localized progress, but many of the 
problems are self-inflicted. It is very disappointing to hear 
about delays caused by poor execution when the U.S. taxpayer 
has invested so much in these programs.
    For the last eight years, Congress has defended the Space 
Launch System and Orion crew vehicle from attempts at 
cancellation and proposed budget cuts. Funding for the 
Exploration Systems Development now is nearly $4 billion a 
year.
    The Government Accountability Office reported last spring 
that the first launch of the SLS likely will be delayed a year 
from late 2018 to late 2019. Delays with the European Service 
Module also could push this into 2020. If this is the case, the 
schedule for the first launch with crew is also at risk because 
the time needed to upgrade the mobile launch platform.
    The NASA Inspector General reported this week that the 
development of Exploration Systems is one of the most 
significant challenges facing NASA. The IG highlighted problems 
facing all components of the system: SLS, Orion, and the Ground 
Systems. NASA and the contractors should not assume future 
delays and cost overruns will have no consequences. If delays 
continue, if costs rise, and if foreseeable technical 
challenges arise, no one should assume the U.S. taxpayers or 
their representatives will tolerate this forever.
    Alternatives to SLS and Orion almost certainly would 
involve significant taxpayer funding and lead to further 
delays. But the more setbacks SLS and Orion face, the more 
support builds for other options. Other space exploration 
programs at NASA, like the Commercial Crew Program, also are 
facing significant delays and challenges.
    NASA has suffered for decades from program cancelations 
that have delayed exploration goals. As NASA's exploration 
systems progress from development to production, operations and 
maintenance, NASA and its contractors must bring down costs and 
guarantee that deadlines are met. To this end, I was glad to 
see NASA issue a request for information last November in order 
to explore ways to reduce costs. Moving to firm fixed-price 
contracts for production might be an appropriate path going 
forward, but only if it benefits the taxpayer.
    Congress needs to have confidence in NASA and the 
Exploration Systems contractors, which I don't believe we have 
now. That confidence is ebbing. If it slips much further, NASA 
and its contractors will have a hard time regaining their 
credibility.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Chairman Smith follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Babin. Thank you, Mr. Chairman.
    Now, let me introduce our witnesses. Our first witness 
today is Mr. Bill Gerstenmaier, Associate Administrator of the 
Human Exploration and Operations Mission Directorate at NASA. 
Mr. Gerstenmaier began his NASA career in 1977 performing 
aeronautical research, and he has managed NASA's human 
spaceflight portfolio since 2011.
    He received a bachelor's of science in aeronautical 
engineering from Purdue University and a master's of science in 
mechanical engineering from the University of Toledo.
    Our second witness today is Dr. Sandra Magnus, Executive 
Director at the American Institute of Aeronautics and 
Astronautics, AIAA. In addition to her role at AIAA, Dr. Magnus 
is a former NASA astronaut and, prior to that, worked as a 
practicing engineer in the aerospace industry.
    Dr. Magnus received a degree in physics, as well as a 
master's degree in electrical engineering, both from Missouri 
University of Science and Technology. She also earned a Ph.D. 
from the School of Material Science and Engineering at Georgia 
Tech.
    And I now recognize Mr. Gerstenmaier for five minutes to 
present his testimony.

             TESTIMONY OF MR. WILLIAM GERSTENMAIER,

                    ASSOCIATE ADMINISTRATOR,

                       HUMAN EXPLORATION

                AND OPERATIONS DIRECTORATE, NASA

    Mr. Gerstenmaier. Thank you.
    We're living in an amazing time in human spaceflight. NASA 
and our international partners have had crewmembers living 
onboard the International Space Station for more than 17 
consecutive years. Most high school students today have only 
known a time when humans were living and working in space.
    We are using the space station to expose a broader 
community beyond the current space industry the benefits of 
using microgravity as an environment to develop new systems and 
techniques for use on the Earth. These new companies and 
researchers have never seen the benefits of space to their 
products and processes. The space station is becoming a place 
for business to expand, grow, and gain competitive advantage 
over companies not doing research in space. Just as having 
crews in space is now accepted, business operating in space 
will become normal and accepted.
    NASA has bought services for cargo delivery from two 
companies and is adding a third. The agency is in the process 
of acquiring services and certifying two new systems to 
transport crews to the ISS. These companies are busy 
manufacturing and certifying their systems. Our partners in 
low-Earth orbit are helping build a strong commercial space 
industry and this allows us to focus our efforts on deep space 
exploration, which brings us to the subject of today's hearing: 
exploration systems development.
    NASA's Space Launch System rocket, the Orion deep space 
capsule with the European Service Module, and Ground System 
programs are undergoing manufacturing and certification in 
preparation for their first integrated flight. Just think about 
it. There is more human spaceflight hardware in production 
today than at any time in the United States since Apollo.
    As a nation, we are building three different crew vehicles: 
Orion, Starliner, and Dragon, one for deep space and two for 
low-Earth orbit. Getting to this point was not easy, and there 
are still challenges ahead. However, we all need to pause and 
reflect on this amazing time.
    As we pursue human exploration further into the solar 
system, our exploration teams are building more than a rocket 
and a spacecraft for a single flight. Rather, we are building a 
flexible, sustainable system that will be used for decades to 
come. With this approach, we can incrementally upgrade and 
enhance our exploration systems to accomplish a variety of 
missions, crewed and un-crewed in deep space.
    We are also building a system designed with modern 
manufacturing technique for lower production costs than 
previous designs. The work performed in support of SLS and 
Orion has applications to other programs in aerospace. For 
example, hundreds of requests for information have been 
transferred from Orion to the commercial spacecraft in 
development for low-Earth orbit. The work on self-reacting--
reaction friction stir welding developed for SLS will have 
application beyond SLS to other launch vehicles in development.
    It is the proper role of government to develop capabilities 
for use by all. Hardware to support the multiple flights has 
been built. Three Orion crew modules, one structural test 
article, one flown during Exploration Flight Test 1, and the 
current flight article have all been built for Orion. Four 
major test stands are complete at Marshall. The engine section 
structural testing is fully complete at Marshall. The vertical 
assembly building at KSC is complete. The launch pad is nearing 
completion. All RS-25 engines and controllers are ready for 
flight.
    Seventeen parachute development tests are complete. Four 
qualification parachute tests are complete with four more open. 
The data from these parachute tests are helping our commercial 
crew partners with their tests also.
    The amount of work completed today for the deep space 
exploration system is large, and it is documented in my written 
testimony. Further, this government investment in SLS and Orion 
is benefiting all. We need to be careful and not focus on a 
single launch date projection but rather take time to examine 
the quality, quantity, and future benefit of the work 
completed. This deeper examination will reveal the value of the 
work completed to the nation.
    NASA has carefully reviewed the work remaining to the 
launch, including certification, and while this review shows 
EM-1 launch date of June 2020 is possible, the agency has 
chosen to manage to a December 2019 launch. This earlier launch 
date is reasonable and challenges the teams to stay focused on 
tasks without creating undue pressure. Furthermore, NASA's 
taking additional steps to reduce schedule risk for both known 
and unknown issues and protect for the earliest possible launch 
date. The cost for EM-1, even with the June date, remain within 
the 15 percent limit for SLS and are slightly above for Ground 
Systems operations. Exploration Mission 2, Orion costs, and 
schedule are not adversely impacted by the EM-1 schedule, and, 
as discussed earlier, the work completed by SLS, Orion, and 
GSDO shows outstanding progress.
    I welcome your questions and thank you for this opportunity 
to discuss the amazing work accomplished by the men and women 
of NASA and their contractor partner teams. Thank you.
    [The prepared statement of Mr. Gerstenmaier follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Mr. Gerstenmaier.
    And now, I recognize Dr. Magnus for five minutes for her 
testimony.

                TESTIMONY OF DR. SANDRA MAGNUS,

                      EXECUTIVE DIRECTOR,

               AMERICAN INSTITUTE OF AERONAUTICS

                    AND ASTRONAUTICS (AIAA)

    Dr. Magnus. Chairman Babin, Ranking Member Bera, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to address you today.
    The development system of the Space Launch System and the 
Orion crew vehicle are major milestones for our nation's space 
program, and I would not understate their importance. However, 
I would like to address the larger view related to the current 
state of our human spaceflight program and comment on its 
progress and direction.
    The idea of what is possible in space has been in 
transition over the last decade. When talking with the public, 
I use a model to describe the ecosystem that is today's human 
spaceflight program. I refer you to the figure on the TV 
monitors and have you imagine a bubble or a balloon centered on 
the Earth slowly expanding. That expanding surface represents 
the outward expansion of human activity. Since the Apollo era 
for the last 40 years, the surface of that bubble has expanded 
only to low-Earth orbit in that initial phase, and it's 
remained there. During this period, the government was the 
driving force behind the expansion of human activity in space, 
and this had led to an accumulation of experience, technology, 
and management operations in this environment.
    Now, private industry has become interested in engaging 
more proactively and independently in this open space, in that 
development phase as on the figure. As commercial activities 
mature, it creates stability and a foundation upon which the 
surface of the bubble, the initial phase, can expand yet 
further beyond low-Earth orbit.
    For the foreseeable future, expansion beyond will continue 
to be driven primarily by government-derived goals and 
investments. Because of the increased engagement by industry in 
LEO, in low-Earth orbit, NASA and the government are now free 
to develop beyond into cislunar space and beyond that.
    But at the core of implementing this model are two key 
questions. What are the technologies, knowledge, and experience 
that the government wants to have available for broad 
dissemination to industry 50 years from now? And two, what are 
the capabilities and services that are--that the government and 
private industry, each driven by their own motives, are 
interested in developing that can potential sustain viable 
space-based businesses after leveraging initial government 
investment?
    A core concept inherent in the model and underscored by 
these questions is the fact that there is a need for government 
investment and activity at the leading edge of exploration 
during that initial phase and the fact that industry will 
sooner or later reap the benefit of that government investment 
to create and establish new capabilities and business ventures 
in the development phase.
    And I might comment the normalization phase we're not ready 
for yet in human spaceflight but you see that happening over 
the last decades in the satellite industry where there are 
independent economic spheres active and the government is a 
customer. However, the government still does its own thing for 
its own purposes. So if you can add that sort of with a twist 
to human spaceflight, we're just simply not ready for that 
phase yet. And this is the dynamic that's unfolding in human 
spaceflight, as I mentioned.
    The model I have discussed is a powerful one, and if it's 
employed strategically--if employed strategically--and that 
brings me to the important point, and this is one that you've 
heard many, many times and I don't think that you disagree, and 
so the United States needs a comprehensive national space 
strategy. It is imperative that we commit as a nation with a 
constancy of purpose for the long term. It is the nature of the 
space business that it takes time, patience, and constant 
purpose to make advancements. The establishment of the National 
Space Council provides an opportunity to create this integrated 
approach.
    A committed long-term strategy is necessary but it's not 
enough to ensure the success of the U.S. space program. To be 
effective, sufficient resources need to be allocated to 
implement the plan. This is something that has challenged NASA 
in the past and continues today. When I joined the agency in 
1996, NASA received approximately 7/10 of a penny for every tax 
dollar. Today, the agency receives approximately 5/10 of a 
penny for every tax dollar, this despite the fact that the 
number, breadth, and complexity of programs has increased.
    Fundamentally, NASA is constrained by limited control on 
the expense side of its budget as well and has limited freedom 
to adjust overhead, either facilities or civil workforce, 
whether size or skillset, and in some cases the management of 
task assignments around the agency. To execute a long-term 
strategic U.S. space program in a constrained budget 
environment effectively and successively, NASA must be given 
the ability to make decisions and take actions in these areas.
    Equally important to the adequate resources is the 
stability insurance of those resources. Developing space 
hardware is complex and challenging, as you've heard today. A 
program with a multiyear phase budget can absorb more initially 
expensive engineering decisions knowing that the result will be 
lower operational costs and hence overall net savings over the 
life of the program. The current budgeting process and lack of 
a stable budgetary environment prohibits this kind of 
comprehensive approach to be used.
    The transition that is occurring in how humans engage in 
space has been a goal for decades. Our nation was built upon 
exploration, expansion, and economic development. From the 
arrival of the first immigrants and settlers to the westward 
expansion across the continent, we have faced the challenges, 
forged new paths, and overcome all obstacles. As we expand into 
space, the next frontier, I am confident we can tap into the 
same spirit and energy.
    Again, thank you for the opportunity to address this body, 
and thank you for your continued support of our nation's space 
program. I look forward to answering any questions you may 
have.
    [The prepared statement of Dr. Magnus follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you very much, Dr. Magnus.
    I appreciate the witnesses' testimony. The Chair recognizes 
himself for five minutes for questions.
    And I want to thank you both. I was running a little bit 
late this morning, didn't have a chance to see you before the 
hearing started, so anyway, great to have you here. We 
appreciate you.
    One of the primary purposes of the NASA Transition 
Authorization Act of 2017 was continuity of purpose and 
expressing the importance of staying the course on program 
development so as not to delay American space exploration any 
longer. Can each of you discuss the importance of continuity of 
purpose and how you balance that against good program 
management and discipline? And we'll start with you, Mr. 
Gerstenmaier.
    Mr. Gerstenmaier. Again, I think it's really important we 
have a common vision of what we're doing as we move forward so 
we can build the hardware and systems that can support that 
vision. And we've done that with SLS and Orion. We've built a 
system that allows us to move human presence into the solar 
system. So the Orion capsule has applications for around the 
Moon, can support activities on the Moon and lunar activities. 
It can also support development beyond the Earth-moon system, 
the same with SLS. The rocket is designed to really be a heavy-
lift launch capability. It can support the human missions 
around the Moon, it is also absolutely critical and needed for 
Mars-class missions, and it also can serve a very strong role 
for the science activities such as the Europa mission to go out 
to the outer planets. It can reduce the transit time by 50 
percent to the outer planets.
    So we have tried to build pieces of key infrastructure that 
enables this vision and allows us to fit within this 
architecture and framework we've been given, but keeping a 
constancy of purpose or a general direction when we're moving 
forward is extremely important to us. Starting and stopping is 
very difficult in our industry.
    Chairman Babin. Okay. Dr. Magnus?
    Dr. Magnus. Yes, I'd--excuse me. Yes, I'd like to echo 
that. Starting and stopping in our industry is really not 
healthy.
    Chairman Babin. Right.
    Dr. Magnus. We saw that with the end of the shuttle 
program, and we lost a lot of our corporate knowledge, and 
we're going to see some of that when we start launching again. 
We'll have to relearn some lessons that we've already learned.
    But the continuity piece is important. You know, as a 
nation, we have a little bit sometimes of a short attention 
span, and we end up hurting ourselves. It was already mentioned 
earlier there were a lot of programs that we've seen NASA have 
to cancel over the years.
    If you look back in the Apollo era, you think of the 
dedication and the commitment they had over a decade and longer 
to commit and execute that program. That's really what you need 
in the space--human spaceflight. You need a ten-year, 15-year, 
a 20-year program, and you need to be able to stick to it.
    I think it's really exciting that the Committee's 
interested in this topic. I think the oversight's important to 
sort of keep people focused. I think that's an important key as 
well, so it takes the whole community. But you have to be able 
to stick to the----
    Chairman Babin. Right.
    Dr. Magnus. --program, and you have to be able to fund it 
appropriately so that the intelligent decisions can be made to 
do the tradeoffs with the expenses.
    Chairman Babin. Excellent. Thank you very much. How will a 
delay in the first launch of an uncrewed Space Launch System 
until no earlier than December of 2019 impact the scheduled 
launch date of a crewed launch of SLS? NASA has an internal 
date it's managing to, as well as a date is has formally 
committed to. Do either of these dates now change?
    Mr. Gerstenmaier. Yes, again, in terms of our Exploration 
Mission 2, our first crewed mission, so far the schedule 
delays, even if the Exploration Mission 1 went all the way to 
June, it doesn't really impact where we are with EM-2. There's 
a constraint that the mobile launch platform in Florida--that's 
the facility that the rocket launches off of--it needs to be 
modified between the first flight and the second flight to 
allow for the exploration upper stage. And there's a 33-month 
amount of time needed between--for that upgrade of that mobile 
launcher. So that's what keeps EM-1 and EM-2 tied together, but 
right now, the slips that we've seen with EM-1 don't impact 
where we can launch the first----
    Chairman Babin. Okay.
    Mr. Gerstenmaier. --crewed flight at this point. But again, 
we need to be very careful of that, we need to watch for that, 
and we need to potentially discuss whether it's advantageous to 
us to have another mobile launcher available to avoid that tie 
between EM-1 and EM-2, but that's the current tie.
    Chairman Babin. Okay. Thank you. Dr. Magnus, do you have 
anything to add to that? Okay.
    How will a slip in the first launch of the un-crewed Space 
Launch System impact the cost of the program?
    Mr. Gerstenmaier. Again, it's surprising to some that the 
overall cost hasn't really changed that much because what 
we've--especially for EM-1 because what we've done is we're 
really building much more than just one single flight. So as 
work is completed on the first launch and the first flight, 
when that work is completed, that work can be set off to the 
side and the teams can go off and start working on the next 
element. So in fact----
    Chairman Babin. Okay.
    Mr. Gerstenmaier. --we have today multiple pieces of 
hardware in flow for the multiple missions across the sequence.
    Chairman Babin. Okay. I have got six seconds. How will a 
delay in the first un-crewed launch of the Space Launch System 
impact a potential launch of SLS for the Europa mission?
    Mr. Gerstenmaier. Again, there's really no impact there. We 
can support----
    Chairman Babin. Okay.
    Mr. Gerstenmaier. --pretty much whatever the Science 
Mission Directorate needs for that mission, and we'll figure 
out whether it occurs after the first flight or after the 
second flight to meet their needs.
    Chairman Babin. Okay. I have several more questions, but 
we're going to go on to the gentleman from California, Mr. 
Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    Dr. Magnus, in your opening statement you talked about the 
importance of having a strategic vision over the long period, 
and we saw that when President Kennedy challenged us in the 
1960s to put man on the Moon in this decade. My colleague from 
Colorado probably does have a sticker that says ``Mars by 
2033,'' so we ought to commit to putting a woman on Mars by 
2033. It does give the public a sense of what we're working 
towards, and in that perspective as we're thinking about SLS 
and Orion, the lunar mission, et cetera, it gives us the chance 
to think about it in a context of, okay, if we're going to the 
Moon, how does that help us then think about how we're going to 
go and take that next step.
    So in that context, as we're thinking about EM-1 in the 
context of going to deeper space, I'm sensing that as we do the 
EM-1 mission we're learning a lot. We're reestablishing supply 
chains. We're reestablishing a workforce and a talent base that 
will make EM-2 easier, is that correct?
    Mr. Gerstenmaier. Yes, definitely. As we--the first EM-1 
flight is to test the vehicles and the systems and the hardware 
to make sure they're really operating to the levels that they 
need to be when we put crew onboard. And I think as you see 
this movement outward, we go to the Moon where we can return if 
something goes wrong in several days, five days. On station 
today, we can be back in about an hour, hour-and-a-half from 
station. When we go to Mars, we're now committed for multiple 
months, so I think you see that natural progression in taking 
more risk, learning to operate in a more challenging 
environment, and as you operate in that more challenging 
environment, you need systems that can support operating in 
that environment. So it's kind of a natural stepping stone and 
movement as we use the Moon as a proving ground, a training 
ground, a development area where we can build concepts, 
processes, procedures, and hardware that will eventually allow 
us to go to the Mars-class missions in the future.
    Mr. Bera. And as we move on to EM-2 and send a crew up, are 
we also now conceptually thinking about EM-3?
    Mr. Gerstenmaier. Yes. If we're really building continually 
to challenge what we can do, the big advantage of the Space 
Launch System is we can not only carry crew, but we can carry a 
substantial cargo with us, with the crew, so we can carry 
potentially a habitation piece with us on EM-3, and when the 
crew will be there, they can go into that habitation module and 
begin a crew-tended presence around the Moon, which is, again, 
starting to break that tie back to the home planet and getting 
us ready to move into deep space. So you can see that natural 
progression of where each mission builds on the past mission, 
and we take stronger challenges, we push the team more, we gain 
the experience. And what we learn from those earlier missions, 
it feeds directly into the next mission, so each mission builds 
on each other.
    Mr. Bera. Dr. Magnus, in the slide that you presented, you 
also showed the private commercial sector following behind, so 
could you describe how you see the private and international 
community kind of falling behind as the government starts to 
push further and further, how the private sector and 
international community can continue to support that?
    Dr. Magnus. Yes, so that goes back to the idea of a 
national comprehensive strategy because, ideally, what you 
would want to do from a national viewpoint is figure out what 
are the technologies and capabilities that you want to invest 
in from a government viewpoint so that those knowledge and 
those pieces of technology are available for everybody. And 
then what is--what are the things that are a little bit more 
mature that you could encourage companies or companies might be 
interested in developing.
    And then from a national viewpoint as well when you think 
about the international piece, what are those technologies and 
capabilities that as a country we want to take the lead in? Do 
we want to be the transport experts? If you look at Canada, 
they've decided to focus on robotics, for example.
    And then understanding the concept of those priorities, you 
can then establish how do you want to bring the international 
partners in and how do you want to help the companies 
establish, you know, the leverage that they need to build into 
their businesses. So you have to kind of start with that big-
picture view that has to be a little bit more governmentwide 
and nationally focused.
    Mr. Bera. In prior committee hearings--let me make sure I'm 
thinking about this correctly, when we've thought about a 
return to the Moon, I can visualize a day where NASA is focused 
on the science mission. They may look at the various launch 
vehicles that are available in the commercial market as opposed 
to having to build their own launch vehicles, say, okay, we'll 
contract with company X to be the launch vehicle. They'll look 
at various lunar landing commercial vehicles, say, okay, we're 
going to contract with this lunar landing vehicle. That will 
take our science project. Is that the right way to think about 
this potentially?
    Dr. Magnus. Yes. If I may, if you think about--you know, 
you have a toolbox to build a house. You don't have just one 
tool in a toolbox, and you find the right tool for the job. And 
so, again, in using the satellite business as a model, there 
are economic activities going on that--where the government 
purchases services, and there are government activities as 
well, so you need a mix, and it has to be driven by what are 
the--what is the strategic view for the country and what kind 
of capabilities do you want to create and make sure that you 
have going forward, so you have to think about it from that big 
picture. There's a place for all of it in the right strategy.
    Mr. Bera. Right. Thank you. I'm out of time. I yield back.
    Chairman Babin. Okay. Thank you.
    Now, I'd like to recognize the gentleman from Alabama, Mr. 
Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    The production of the core stage element is currently 
driving the Space Launch System program schedule. The program 
is combining welding techniques and materials--specifically, 
the thickness of the metal--that have not been used before. 
While establishing new production techniques is laudable, the 
program has faced numerous setbacks as it is developing these 
processes and correcting defects.
    How confident is the program that it and its contractors 
will have gained enough knowledge to avoid these setbacks and 
delays for future flight hardware?
    Mr. Gerstenmaier. We've met the challenges of self-reacting 
friction stir welding of the thicker materials. We understand 
now how to do that. We'll still probably continue to refine the 
welding technique as we go into future pieces, but the basic 
understanding is in place now and we know how to do the 
welding.
    And as I said in my opening remarks, that's also important 
to the industry as a whole. NASA paved the way by now allowing 
others to use those same techniques in the larger thickness of 
materials.
    Mr. Brooks. If you could, what steps does the program and 
contractor have in place to avoid mistakes such as welding tool 
changes that shut down production?
    Mr. Gerstenmaier. We're again carefully monitoring all that 
activity. We're looking at ways we can do inspection. We knew 
fairly soon and immediately that there was a problem with our 
welding when it occurred, so the good news was we had tools and 
techniques in place to find the defects to prevent that from 
extending into the flight hardware. That was good.
    The bad thing we didn't know is we fully didn't 
understand--we had done smaller samples. We had done smaller 
welding tests, but we had not done of--any of the magnitude or 
the scale of which we're trying to do with the full vehicle. So 
I think we just need to be prepared as we build schedules going 
forward to know that these first-time things that we have never 
done before of a magnitude that has never been done before may 
need a little bit of extra time that first time through and not 
be overly optimistic in our schedule. So we'll build in some 
time to go ahead and do those kind of things to make sure we 
don't have that same kind of problem moving forward. And we've 
identified those areas in the future where we see these first-
time items. We will put in place processes and procedures to 
prevent what's--what occurred in the past.
    Mr. Brooks. The core stage element, again, which is 
currently driving the SLS program schedule, still has to 
complete a major integrated test fire, which is called the 
green test run. The green test run will have the core stage 
integrated with its four main engines. The tanks will be filled 
with cryogenic fuel for the first time, and the core stage will 
be fired for about 500 seconds. The engines have been tested 
individually but not all together, which creates a different 
heat, acoustic, and vibration environment, and this will be the 
first for the core stage. What areas cause the most concern 
during this test, cryogenic fuel piping, leaks, material 
stresses, et cetera?
    Mr. Gerstenmaier. The teams are really analyzing that test 
in all its detail to make sure that we are really prepared for 
that test. And one thing we learned out of this last schedule 
problem is that we're going to have a dedicated person and a 
team that actually will look at that test to make sure we have 
accommodated and taken into account everything that might 
occurred during that test. The concerns are when you--when the 
rocket is designed to come off the launchpad and typically fly, 
it's not designed to stay in one location for the entire 
firing, so there could be some heat that builds back into the 
systems. We've been analyzing that in wind tunnels. We've been 
looking to make sure we're prepared for that. We've done 
extensive work on a test stand to look at modeling and testing 
of how we do the fluid flows. We've looked at procedures so we 
bring in tankers to bring in the liquid hydrogen and oxygen 
during the test in the most efficient manner. We've protected 
for slips in schedules.
    But we see that test coming up after the core stage gets 
delivered to Stennis as one of the key tests and one of the key 
risks. We and the teams, we'll be fully prepared for that test 
when it occurs.
    Mr. Brooks. What potential damage are you testing for that 
might occur during a nominal test of this nature such as 
insulation damage, internal harnesses, boxes coming loose? Just 
what are you looking for?
    Mr. Gerstenmaier. All those things you describe. I think 
probably our biggest concern is probably thermal and potential 
thermal damage to the bottom of the vehicle and what needs to 
be repaired. We'll have procedures in place to go do those 
repairs. We'll have alternate techniques to fix things if they 
occur during that testing. So we're actively working that area, 
and we will have detailed test plans and detailed mitigations 
for anything that can arise.
    Mr. Brooks. Thank you, Mr. Gerstenmaier. And, Mr. Chairman, 
I yield back.
    Chairman Babin. Yes, sir. Thank you.
    Next, the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman, very much. And thank 
you for being with us today.
    If I can be parochial for just a minute, in two days, 
Orbital ATK's Antares rocket is going to launch from the mid-
Atlantic Regional Spaceport at NASA's Wallops Flight Facility 
up to the International Space Station with important supplies 
for astronauts living and working in space. And two of my 
wonderful staff members are going in to watch the launch. So 
I'm really proud of the role that Virginia plays in supporting 
NASA and the ISS from Wallops because, aside from Cape 
Canaveral, it's the only launch site in the United States that 
supports the station, and it's supported national security 
missions, including a recently announced NRO mission next year. 
And just last month, an emerging small launch startup Vector 
Space announced that its three initial launches will occur at 
Wallops next year. We had an accident here a couple of years 
ago, and Virginia has put nearly $200 million of taxpayers' 
money into the spaceport. It's been a really unique, successful 
public-private partnership between NASA, Virginia, and Orbital 
ATK.
    So, Mr. Gerstenmaier, as we look at our future space 
operations, can you discuss how Wallops can contribute to 
NASA's planning and operations?
    Mr. Gerstenmaier. Again, we see Wallops playing a key role 
for cargo delivery to the space station. I think it's already 
interesting to see how the Orbital ATK team is using that cargo 
vehicle in creative ways. As you see, it completes its cargo 
delivery mission. Then, that vehicle can come off the space 
station and then do another mission for its own uses 
afterwards. We've looked at full-scale combustion experiments 
on board space station or on board the Cygnus vehicle where we 
actually set a large fire inside Cygnus prior to reentry to 
understand what fire detection should be like and what fire 
suppression should be.
    So it's pretty exciting to see the Orbital ATK team look at 
creative ways of using their vehicles with a post-mission after 
the cargo mission is done in creative ways and bringing other 
folks in. So I think we'll continue to see a large number of 
launches out of Virginia supporting that activity and growing 
in that area.
    Mr. Beyer. Great.
    Mr. Gerstenmaier. You also notice the control center's been 
upgraded. You'll notice some of the other things that we've 
done in the times between the flight, so you'll see NASA's 
investment in the launch site, as well as what the State of 
Virginia has done.
    Mr. Beyer. Thank you very much.
    And, Dr. Magnus, in your testimony, you said and you wrote, 
and I quote, ``The United States needs a comprehensive national 
space strategy accompanied by a continuous, long-term 
commitment for its execution.'' Do we not have that already? 
And where are the holes in that?
    Dr. Magnus. Yes, I think some of it--some of the holes came 
out during the National Space Council meeting. You know, we 
have--NASA has a comprehensive strategy for how they want to 
continue doing exploration, you know, that initial phase of the 
bubble, and they've been working with the private sector and 
the development stage, sort of that middle stage, but there's a 
lot of work the FAA is still working on with respect to the 
licensing. There's discussion about the on-orbit piece, there's 
discussion about laws, there's tax incentives, there's--so 
there's all kinds of the other pieces when you think about what 
you have to do to develop a healthy economy or a stable economy 
or help one get off the ground. It's not just about the rockets 
and the habitats. There's legal frameworks, there's 
regulations, things like this.
    So--and then you also have to fold in the piece of what do 
we want from our international cooperation? What do we want to 
encourage in our private industry? How do we want to help the 
innovation succeed? How do we want to make sure that the 
government has its mission and stays focused on its mission? So 
there's all these pieces that I think they're out there, but 
it's not clear to me they have all been brought together 
comprehensively.
    Mr. Beyer. So connected to that, Mr. Gerstenmaier, as you 
know, one of the ongoing debates that we hear on our Space 
Subcommittee is should--do we go directly to Mars or do we go 
to the Moon first and use that as the launching part for Mars? 
I noticed in your testimony you talked about how such a program 
would, quote, ``lead the return of humans to the Moon,'' the 
long-term exploration. So is it already decided that we go to 
the Moon first?
    Mr. Gerstenmaier. Again, I think, as we--I described 
earlier, this stepping-stone approach where we use the Moon as 
a training ground to move further out is a good approach, and I 
think that's consistent with the authorization language that 
we've received and the direction from Congress and the 
Administration. So it's a stepping-stone approach of where we 
use the Moon to learn the things, learn skills, learn things 
that we need to help us advance, but ultimately, we're moving 
human presence into the solar system with the ultimate goal 
towards Mars.
    Mr. Beyer. Thank you. Dr. Magnus, I just want to quote from 
your written testimony. ``The current budgeting process, 
including the regular use of continuing resolutions, threat of 
government shutdowns, lack of a stable budgetary environment 
prohibits this kind of trade space to be used.'' I just want to 
say amen. Thank you for putting that in writing. The entire 
federal workforce, the government contracting community, the 
military, everyone agrees with you.
    Mr. Chairman, I yield back.
    Chairman Babin. Yes, sir. Thank you.
    Now, I recognize the gentleman from Florida, Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman. And thank you for 
calling this informative meeting. And I want to thank the 
witnesses, both of you. It's always a pleasure to hear from you 
and gain your insight.
    Mr. Gerstenmaier, would you say that reaching Mars is the 
top priority of NASA right now?
    Mr. Gerstenmaier. Again, I--the way I describe it is moving 
human presence in the solar system, but it's one of the 
stepping-stone approaches as we move human presence into the 
solar system.
    Mr. Posey. I mean--but, I mean, as a priority basis, how 
would you prioritize things?
    Mr. Gerstenmaier. Again, I think we need to be careful, and 
I don't pick destinations. I talk more about kind of building a 
capability or the expanding bubble that Sandy described where 
we kind of move out into the solar system and we bring the 
commercial sector, the economy with us as we move. So I'm 
looking for a much longer strategic vision than a particular 
single destination. And I see this as a continuum of gaining 
the skills that we need to have as we move further into the 
solar system.
    Mr. Posey. Well, I really appreciated hearing you use the 
words stepping-stone in reference to the Moon just a few 
moments ago in answer to that question, and I think that 
Congress has kind of expressed they'd like pretty much 
everything you do in space to be a stepping-stone to Mars, that 
that ought to be a goal. And you know and I know that if 
everything's a priority, nothing's a priority, and so I'd 
really like to hear it acknowledged that reaching Mars is a top 
priority, and everything that we do is in fact a stepping-stone 
to reaching that goal for a number of reasons.
    You're familiar with Buzz Aldrin's Cycler program. He's my 
constituent, and I hear about that plan frequently. Would you 
just take a moment to share with me why the plan that you're 
pursing is superior to the plan that he suggests with his 
cyclers?
    Mr. Gerstenmaier. Again, I think in our world we often like 
to contrast things and show how they're different and we try to 
pick one or the other. If you look at the approach that we've 
laid out where we have potentially some kind of crew-tended 
platform around the vicinity of the Moon and we use that as a 
staging ground to go to Mars, that's very--that has very 
similar aspects to many of the cycler concepts that Mr. Aldrin 
talks about. It doesn't continually cycle, but we're using the 
Moon potentially and the high elliptical orbit around the Moon 
as a staging position to go to Mars rather than returning 
directly back to the Earth.
    So it's a--there's pieces of what he describes in our plan. 
It may be not as much as he would like. He would like to have 
the pure plan the way he describes it with a large cycler in 
place, but I think we look--and we look to the community to get 
good ideas from everyone. We look to academia. We look from our 
Apollo astronauts. We look from commercial industry. We want to 
take all those great ideas and put them together and then build 
the strategic plan that was--we've been describing here to keep 
us moving forward.
    So I don't see it as one or the other. I'm not going to say 
our plan is superior to his or his is superior to ours. There's 
advantages and disadvantages of both, but possibly a hybrid 
between those two might be the actual best solution for all of 
us.
    Mr. Posey. That's a pretty good answer, and I assume 
funding approvals play a big part in that.
    Mr. Gerstenmaier. Definitely. If we're constrained by the 
financial environment. You know, we're given the adequate 
resources to do what we need to go do, but we need to reflect 
that in our planning, that we don't try to build a program that 
requires more funding then is reasonably available, and that's 
a consideration and a concern as we do the planning.
    Mr. Posey. Dr. Magnus, do you care to weigh in on this?
    Dr. Magnus. Yes. I would just like to comment that we have 
to quit talking about either the Moon or Mars because, as Bill 
mentioned, it's an ``and.'' And if you think about the model 
that I presented, if we're--and--if we're really thinking 
carefully about how we're, you know, moving that initial 
phase----
    Mr. Posey. I think everyone here in this room understands 
we want to go Mars for a number of reasons, as a launching 
area, the potential of fuel there. I mean, at one time there 
was quite a bit of opposition to it, and people who were 
opposed to it that said been there, done that have pretty much 
acknowledged that to go further, that's the smartest way to do 
it.
    Dr. Magnus. Right. And we can do it to--in a way that, as 
we bring industry behind us, they can, you know, expand that 
development phase out to the Moon. The government continues to 
go to Mars and leaving that charge if you will, so there's a 
smart way to do this where you pass through the Moon, you do 
the things that you need to do there to continue to build your 
operational capability to go to Mars. The government keeps 
expanding to Mars, and you bring that economic system behind 
you so that it's stable and provides the additional capability 
to continue that outward thrust. There's a way to do this.
    Mr. Posey. Thank you, Doctor.
    Mr. Chairman, I see my time is up. Thank you.
    Chairman Babin. Yes, sir. Thank you.
    Yes, the gentleman from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Dr. Babin. And I'll just put up my 
prop for one second.
    And to be parochial, in three days or four days from 
Vandenberg Air Force Base we will launch the JPSS, which that 
satellite was built in Colorado up on the United Launch 
Alliance rocket, which was also built in Colorado. So each of 
us from an economic point of view but also just from a point of 
view of pride has a stake in our space program, period. And all 
of us up here are pretty much on the same page when it comes to 
getting us to Mars.
    I don't care how we get there; just get there by 2033, if 
not a lot earlier. And so my job, whether it's a stepping stone 
to the Moon or we use a hyperloop or we--you know, somehow 
somebody comes up with beaming us over to Mars, I just want our 
astronauts on Mars. Orion and SLS are the main vehicle we have 
to do this now.
    And, Mr. Gerstenmaier, you've heard me talk about this, and 
obviously, our job up here is to get you the funding so you can 
have that constancy of purpose on a 16-year project. And we 
don't have that yet, and it's our responsibility to do that. 
But for me, I'm a results-oriented guy, okay? I don't know what 
the best engineering and the best science and, you know, 
exactly how to do that. That's your responsibility, Dr. Magnus. 
That's your responsibility, Mr. Gerstenmaier. Me, I got to try 
to find you the resources so that you can do that.
    But others up here are more sort of accountant types and, 
you know, want to make sure we hit our benchmarks and the 
milestones, as do you, your engineers. I mean, that's how you 
guys operate. So the anxiety that some feel that we're already 
missing kind of a milestone early in this 16-year journey is 
something I think we all have to take seriously. But our 
responsibility as Members of Congress are to provide you the 
resources to get this done and for you--let me just ask a 
couple just basic questions.
    In sort of developing this program, how do you see us 
adding international partners? Has there been any discussions 
with other countries about partnering with us in a major 
project like this, Mr. Gerstenmaier?
    Mr. Gerstenmaier. There's been quite a bit of work 
discussed with an overall framework. There's a Global 
Exploration Roadmap that'll be published next January, and that 
kind of provides a framework of moving forward and of which is 
consistent with everything we're building. They see SLS, they 
see Orion, they see what we're doing with space station as part 
of that overarching framework.
    The activities around the Moon where we talk about 
potentially a crew-tended activity in the vicinity of the Moon, 
the international partners are extremely interested in that, as 
well as commercial industry, so we're working with both 
commercial industry and international partners.
    As was described earlier, I think this is really a team 
activity where NASA does a piece. We have the Space Launch 
System that can take 45 metric tons to the vicinity of the 
Moon, but then we can use commercial launch vehicles to take 5 
or 10 metric tons of cargo routinely to the vicinity of the 
Moon, so SLS doesn't have to be every flight to the Moon. The 
rockets you talked about from Colorado, the United Launch 
Alliance Stuff, what's being done by Falcon, what's being done 
with Blue Origin, those can all be used as part of this 
architecture so----
    Mr. Perlmutter. And we better not forget Sierra Nevada and 
the Dream Chaser----
    Mr. Gerstenmaier. And Sierra Nevada, who has----
    Mr. Perlmutter. --or I'll be in real trouble.
    Mr. Gerstenmaier. And they have a drop test on the 14th of 
this month to look at their vehicle coming back. All that fits 
together as part of this interactive framework, and I've seen 
tremendous interest from all partners in seeing how they can 
participate, how they can be part of this endeavor.
    Mr. Perlmutter. Dr. Magnus, in your position with the 
association, what are you seeing in terms of the willingness by 
the private sector, as well as when you're doing outreach to 
other countries? How do you see us building the team that will 
help us, you know, get to Mars?
    Dr. Magnus. There's a huge amount of interest in the 
private sector in the United States to participate in this 
project in any way, shape, or form. There are a lot of small 
companies that are engaging in space that never existed before. 
There are established companies who are taking innovative 
approaches to how they want to engage in space. There's a lot 
of energy out there. There's a lot of great ideas out there. I 
have no doubt that we can do it.
    Internationally, I think they look to us, our international 
partners look to us to provide the vision and the energy and 
the drive, not necessarily to be the dictators and direct 
everybody what to do, but Bill mentioned the roadmap. There's a 
lot of enthusiasm to have the United States--``You guys, you 
know, this is great. You've got this vision. We all want to 
take a part of it. Let's figure out how we can do that.'' So we 
can do it if we just keep constancy of purpose and funded.
    Mr. Perlmutter. And at the bottom of it, it says, ``We can 
do this.''
    Dr. Magnus. Right. There you go.
    Mr. Perlmutter. All right. Thank you. I yield back.
    Chairman Babin. Thank you, Mr. Perlmutter.
    I now recognize the gentleman from Florida, Mr.--Dr. Dunn.
    Mr. Dunn. Thank you very much, Mr. Chairman. It's always a 
lot of fun to come here and listen to the interesting and 
intelligent people that you bring to these hearings. I have a 
thousand questions and 5 minutes, so I'm going to jump right 
in.
    We spoke earlier. You know my background as a surgeon, so 
I'm going to ask a lot of questions about life sciences if I 
can. So what are the special risks or are there special risks 
in deep space missions that differ from long-duration, low-
Earth orbit missions?
    Mr. Gerstenmaier. Probably the biggest risk that occurs is 
the risk to radiation and radiation exposure to take humans in 
deep space. Around the Earth, we're shielded somewhat from some 
of the radiation by the magnetosphere. In deep space, that 
shielding is gone, so we're going to have to go look at 
techniques to shield the crews and look at the--if there's any 
other techniques we could even do in terms of medication and 
other things to help with radiation during their journey. It's 
not an insurmountable problem, but it's a problem that we need 
to address that we can't look at as easily around the Earth as 
we would like.
    Mr. Dunn. So you're already opening up new avenues of 
research in life sciences for the extended deep space missions. 
That's exciting.
    Mr. Gerstenmaier. Yes.
    Mr. Dunn. Can--and of course some of that can obviously 
translate to Earth, too? So what interesting things have we 
learned from the Kelly astronaut twin experiments? And you 
don't have to go too long. I mean, I know how about the 
telomeres and all that.
    Mr. Gerstenmaier. Yes, I think that's the exciting thing is 
looking at how the genome changes just exposed to microgravity. 
And we believe that it's a microgravity change that is causing 
changes to the----
    Mr. Dunn. Microgravity, not radiation?
    Mr. Gerstenmaier. Yes. And they can differentiate between 
radiation and microgravity changes and why certain genes 
upregulate some way. They downregulate when exposed to 
microgravity. That's a fascinating research subject. I would 
have to bring some of the researchers here that are much better 
versed than myself, but they can explain to you what they're 
seeing. And it's really opened up a whole new line of 
questioning. And this is how I think science and medicine 
really advance, that new questioning, something you never 
thought about and now you're exposed to it, it puts into--calls 
into question your basic theory. Then, that basic theory 
changes, and now, you're going to develop a brand-new way to go 
solve some problem or to do something in the future. So this is 
a very exciting phase of research.
    Mr. Dunn. Yes, we look forward to hearing from that side of 
your shop as well. How does this affect it? There some 
interesting design modifications for deep space missions then 
that vary from our low-Earth orbit. What are you doing with 
that Orion capsule to make that more habitable?
    Mr. Gerstenmaier. Yes, one big thing is the radiation 
environment, again, we look at some potential shielding. When 
we took Orion on the exploration flight test, we flew radiation 
sensors on it. When we take it on Exploration Mission 1, it 
will also fly radiation sensors. We'll also fly a mockup of a 
human torso inside the capsule, and embedded in the human torso 
will be radiation monitors to simulate the various organs 
inside the human. And then we'll look at a radiation protection 
vest on the outside of the human on Exploration Mission 1 to 
gain insight to see if that provides some protection for our 
crews. But I think there will be some type of storm shelter or 
radiation shelter design into our future deep space vehicle.
    Mr. Dunn. Well, we talked about changes in DNA in long-
duration microgravity and radiation. Are we going to put animal 
experiments on the----
    Mr. Gerstenmaier. We presently----
    Mr. Dunn. --unmanned Mars missions?
    Mr. Gerstenmaier. We presently don't have any--I don't 
believe we have any animal missions on the Exploration Mission 
1, the first mission. We just have the instrumentation and the 
hardware, but we----
    Mr. Dunn. It'd be interesting.
    Mr. Gerstenmaier. --could look at that. We don't have the 
life support system there, so we'd have to put some kind of 
life support system on that first test flight to accommodate 
some animals, but we're doing significant animal research on 
board space station. We have all the basic animal models, which 
you're familiar with----
    Mr. Dunn. Or tissue cultures even, something with----
    Mr. Gerstenmaier. And tissue cultures----
    Mr. Dunn. --DNA in it. Right.
    Mr. Gerstenmaier. Yes.
    Mr. Dunn. So, Dr. Magnus, you have kind of a personal 
relationship with radiation in space, so can you comment on 
this?
    Dr. Magnus. No, I found--you know, I was on space station 
for 4-1/2 months, and I felt like the exercise protocols that 
we had were sufficient. I came back with no bone mass or muscle 
loss----
    Mr. Dunn. No loss of bone density?
    Dr. Magnus. No. So I think we've got that licked, and 
it's--I think Bill's right; the radiation is the key issue, and 
we still are learning a lot about what can happen in a 
radiation environment. I think the ability to do some work 
around the Moon will inform us a little bit more about what we 
don't know and, as Bill mentioned, give us new lines of inquiry 
to make sure we've got our bases covered before we go to Mars.
    Mr. Dunn. Well, you have an excited and engaged, interested 
committee here, so keep us in your thoughts and keep us 
informed. Thank you very much.
    I yield back, Mr. Chairman.
    Chairman Babin. Yes, sir. Thank you for those good 
questions.
    And now, I recognize the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
apologize for having--you know, you have to jump between 
various events that you're committed to, and so I will go back 
and look at the testimony we've had so far.
    I am on the Foreign Affairs Committee, as well as the 
Science Committee, and I am very interested now what our next 
major step into space as to what we see it as an international 
goal and not just an American goal meaning when we're talking 
about going to the Moon and establishing a long-term presence 
on the Moon, we--in the space station we have people from other 
countries and other countries have partnered with us. Are we 
planning anything like that for our moon presence?
    Mr. Gerstenmaier. Yes, we are, and in fact, as we discussed 
earlier, the service module that provides the propulsion and 
life support gases for the Orion capsule come from the European 
Space Agency, and that's being manufactured by them. And this 
is their contribution in the real way to the first steps in 
exploration.
    Mr. Rohrabacher. And does the Administration have any plans 
on this? Do we--that we need to know about?
    Mr. Gerstenmaier. I don't know that we've--you know, we've 
got some--we had the 45-day report action that came out of the 
Space Council. We continue to work on that and see and refine 
details, but I think there's been a general agreement that 
international support is a good thing for deep space, and we'll 
continue to build off of what we've done with the space station 
and look for ways that we can continue that same partnership as 
we move out towards the Moon and out towards Mars.
    Mr. Rohrabacher. I would hope so. You know, I--when I first 
got here, we've both been around a long time, and I remember 
that my vote was actually very instrumental in the space 
station. And if I had switched my vote, it would--the station 
would not have moved forward. I'm actually very pleased with 
how that turned out and how my vote actually made a positive 
difference.
    I would hope that we actually have a plan that is a little 
bit more detailed in terms of the Moon and what we're planning 
to do there now that we've made that decision because up until 
now, we've had a great deal of debate as to whether we're going 
to go right on to Mars and how--you know--and now, I think 
we've reached a consensus that the Moon is the step to Mars 
and--but I need to--I would hope that we get a little bit more 
details exactly what we're planning to have on the Moon, what 
type of cooperation--if it's an international effort, what type 
of cooperation we can expect and how much money of course it 
will cost us to accomplish the specific goals that we have in 
our Mars mission next but in a Moon mission now.
    Mr. Gerstenmaier. We have an exploration report that's due 
to Congress in December, and in that report, we'll start to 
show you some of the specifics of the kind of questions and 
agreements and how we'll do some of these things 
internationally in that report when you see it in December.
    Mr. Rohrabacher. Okay. Well, thank you very much, Mr. 
Chairman.
    Chairman Babin. Yes, sir. Thank you, Mr. Rohrabacher.
    Now, I'd like to recognize the gentleman from Louisiana, 
Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    I very much appreciate your appearance before this 
Committee today. We're all united in our enthusiasm for moving 
this program forward, and we all have many questions and very 
little time.
    I represent Louisiana. The Michoud facility in New Orleans 
has developed a friction stir welding process. Mr. 
Gerstenmaier, could you explain that, please, for the 
Committee?
    Mr. Gerstenmaier. The--there's a large facility, the 
largest in the world that essentially welds our large--the 
tanks, the hydrogen tank and the oxygen tank for the Space 
Launch System. The way reaction friction stir welds are, the 
two plates of aluminum are together; then, there's a spinning 
rod and then self-reacting--instead of having a tool behind it 
that holds the two plates together, there--the pin itself goes 
through and it actually spins at high RPM and actually melts 
and fuses the two pieces of aluminum sheet together. It's 
different than fusion welding when you use like an arc or a 
tool to weld and the fact that there's no heat distortion, it 
actually just molds and puts those two pieces of structure 
together.
    Mr. Higgins. And this is the latest welding technique on 
the planet, am I correct, and provides a very, very strong weld 
and allows you to use new, thinner layers of steel that allows 
them to be sufficient and strong, stronger than in the past and 
yet lighter, is that correct?
    Mr. Gerstenmaier. Yes, it provides a superior weld 
performance and the fact that the defects are typically less, 
and the fact that there's no heat distortion allows for the 
components to be joined together and put together in a much 
stronger manner than they could through another process.
    Mr. Higgins. All right. Thank you. And let me jump forward 
to manned presence on the Moon, as we have discussed earlier, 
as a stepping-stone to Mars. Have landing sites, lunar landing 
sites been discussed and determined?
    Mr. Gerstenmaier. From a robotics standpoint, I think what 
we're interested in now is if you look at the Apollo missions, 
they--most of those missions were equatorial, around the 
equator of the Moon. We see potential water or at least water 
in the north and south pole of the Moon. That could be very, 
very important to us as we think about moving forward. If we 
don't have to carry all our resources with us as we move into 
the solar system, if we can get water from the Moon, that would 
be very interesting to us. So we see some permanently shadowed 
regions in the north and south pole of the Moon that we would 
like to investigate maybe first robotically and then 
potentially if it makes sense with humans in those areas. But 
as soon as we can understand how that water's potentially held 
in the lunar regolith, that can be really important to a market 
and how we use that and how we move presence into the solar 
system.
    Mr. Higgins. Yes, sir. Regarding shelter for human presence 
on the Moon for extended exploration and extended periods of 
time on the Moon's surface, one of the major challenges is 
developing habitant, you know, protected areas where the 
astronauts could stay. Last month, the Japan Aerospace 
Exploration Agency discovered a large and stable lava tube 
beneath the surface approximately 300 feet deep, 300 feet wide, 
accessible through what they refer to as skylights, areas where 
the ceiling or the roof of the tube had collapsed. Does this 
change the paradigm of what you and your team might be 
considering regarding human habitation?
    Mr. Gerstenmaier. I think it's definitely something to be 
considered because if you can take advantage of the radiation 
shielding provided by the lunar regolith and you can have a 
structure or a location to actually go into for storm shelters, 
that could be interesting. So I think that's something that we 
need to continue to keep looking at and see how that fits 
into----
    Mr. Higgins. And this could be explored robotically. Am I 
correct?
    Mr. Gerstenmaier. Yes. You could definitely do it 
robotically. We've talked sometimes about having an orbiting 
crew-tended capability around the Moon. You could do that, and 
then you could use astronauts on board this gateway concept 
that we've talked about to actually command rovers to drive 
into these potential lava tubes, explore them, understand 
what's available prior to committing humans to go to----
    Mr. Higgins. Yes, sir. And one more thing regarding these 
underground caverns and tubes. As opposed to on Earth because 
of the low gravity of the Moon, it's been stated by reputable 
scientists that these tubes could be as large as two or three 
miles in diameter. Do your studies concur with that?
    Mr. Gerstenmaier. I'm not familiar with those studies, and 
I'd have to go research that or ask someone.
    Mr. Higgins. Thank you for your response. Could you--if 
that information becomes available during the course of your 
studies, sir--and thank you for your continued research--could 
you possibly provide that to this Committee?
    Mr. Gerstenmaier. Yes, we will.
    Mr. Higgins. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Chairman Babin. Yes, sir. Thank you, Mr. Higgins.
    They've called votes, so I'm--there's several of us that 
had questions, and we're going to take a minute apiece, one 
minute apiece.
    I'm going to go quickly. The recent slip in the un-crewed 
launch of the Space Launch System seems to be the result of 
many factors, which we've mentioned today, hurricanes, 
tornadoes, the core stage welding issues. What impact will a 
delay in delivery of the Orion service module by the Europeans 
have on the December 2019 date? And what tools does NASA have 
to ensure that the European Service Module does not lead to 
further delays? If you can answer that, please, Mr. 
Gerstenmaier?
    Mr. Gerstenmaier. We're working extensively with the 
European Space Agency. They've committed some extra funding to 
make sure that they can do it from a schedule standpoint, be 
prepared. We know there's some high-pressure helium valves that 
are actually manufactured in the United States for the 
Europeans. We know those valves are having trouble being 
manufactured. We've sent some of our people to the plant to 
actually help with that activity, to help mitigate that 
concern. We actually have a NASA design for a valve, which we 
may manufacture and provide for that application. Lockheed 
Martin has also gotten State Department approval to send some 
of their technicians to Europe to actually assist with some of 
the manufacturing of the European Service Module.
    So I think we're doing everything we can. I think the 
current service module delivery date is supposed to be April of 
next year. I think we're very likely to see that schedule slip 
a little bit maybe to May or June, and then we're looking at 
what we can do to help with that downstream. So we might do a 
simulator on top of the SLS when it goes to Florida to do a 
modal testing instead of having the actual Orion and European--
--
    Chairman Babin. Okay.
    Mr. Gerstenmaier. --Service Module on top, but we're well 
aware of that. That is probably one of our key risk areas.
    Chairman Babin. Yes.
    Mr. Gerstenmaier. We're doing everything we can, but it's 
really just this first-time manufacturing that's causing us the 
problems that we're seeing.
    Chairman Babin. It is a great concern. Thank you very much.
    Now, the gentleman from California, Dr. Bera.
    Mr. Bera. Thank you.
    Quick question. One of the exciting parts of this is I'm 
looking at newer propulsion systems as well, and one that we 
certainly have talked about is solar electric propulsion as 
part of SLS and Orion. Could either one of you talk about the 
importance of why solar electric propulsion's important, 
particularly as we want to go into deeper space and----
    Mr. Gerstenmaier. Sure. I can start and Sandy can help. I 
think that the big advantage is that in terms of efficiency and 
the amount of propellant that needs to be there to actually go 
move things, it's very, very efficient to move large masses 
throughout the solar system. And so you can move--if we have 
this crew-tended facility around the Moon, it can be in one 
orbit. Then, we can use electric propulsion to move it to a 
totally different orbit. So we can be in an equatorial; we can 
go to polar. It takes a long time to do that. It may take up to 
a month, but if the crew's not on orbit or with the vehicle, it 
can move. So I think the big advantage is it allows us to move 
large masses, although slowly, throughout the solar system, and 
that's the advantage to us in the architecture.
    Dr. Magnus. Yes, I would just add, you know, in the context 
of our discussions that were more strategic, because NASA's 
developing this system, it'll be technology that's available 
for everyone to use, and so it's one of those feeders if you 
will that will allow our economy to advance and other companies 
to take advantage of that kind of capability.
    Mr. Gerstenmaier. And I might add we just recently awarded 
some study contracts to typical communication satellite 
manufacturers to see if they would have interest in using the 
next generation of electric propulsion thrusters in a higher-
powered propulsion bus. So we might actually be enabling the 
commercial communication satellite industry to get a jump over 
other foreign competitors by advancing the state-of-the-art in 
electric propulsion and power generation beyond where they are 
today. And we--so we gain--they gain directly from what we're 
trying to do, and then we get a capability we can use around 
the Moon for our needs, so this is kind of a win-win between 
industry and us.
    Chairman Babin. Yes, sir. Now, I think Mr. Rohrabacher 
has--from California has one question.
    Mr. Rohrabacher. Well, you just mentioned commercial 
activities and I had asked before what we thought about 
international cooperation. Is there anything part of the plans 
for this extended moon presence that we're talking about now 
that would include the private sector? And we know now--you 
know, 20 or 30 years ago we didn't have these private companies 
like SpaceX and all the others making their contribution. Do we 
expect there to be private involvement and commercial 
involvement in a way that will help bring down the cost as 
well?
    Mr. Gerstenmaier. Yes, we currently have the NextSTEP Broad 
Agency Announcements where we're working with five companies to 
go look at habitation capability around the Moon, and we're 
actively engaged with them. They're very interested in what 
they can do with us, and then they may have application for 
that in low-Earth orbit as maybe a follow-on to the 
International Space Station. So we're actively very much 
involved with them.
    Mr. Rohrabacher. Right.
    Mr. Gerstenmaier. As I described earlier, SLS meets a 
unique niche. It can carry large mass to the vicinity of the 
Moon along with crew, but we will definitely use expendable 
launch vehicles, new vehicles that are coming online, the 
Falcon 9, Falcon 9 Heavy, New Glenn, all those capabilities, 
United Launch Alliances, they build their rockets. All those 
will be used. So I think what's interesting as we look to this 
whole suite of launch capabilities and commercial capabilities 
and how do we build a plan that involves all of them? So just 
like you described, we do the best of international, the best 
of commercial. We put it together in a plan to allow us 
collectively as a nation to move forward.
    Mr. Rohrabacher. That's terrific. Thank you for that 
answer. And I hope maybe Bigelow might have a little play in 
that as well.
    Mr. Gerstenmaier. He's one of the Broad Agency 
Announcements----
    Mr. Rohrabacher. Okay.
    Mr. Gerstenmaier. --participants in the habitation 
activity.
    Mr. Rohrabacher. Great. Thank you.
    Chairman Babin. All right, sir. Thank you, Mr. Rohrabacher.
    I want to thank the witnesses for this very, very 
interesting hearing and your valuable testimony, and I want to 
thank all the members for their questions.
    The record will remain open for two weeks for additional 
comments and written questions from the members.
    So with this, the hearing is adjourned.
    [Whereupon, at 10:56 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
